Office of Inspector General
U.S. Department of Labor
Office of Audit




                The Atlanta Private Industry Council
                        Audit of Selected
                       Program Year 1996
                        JTPA Contracts




                                    Report Number: 04-99-007-03-340
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


                                                                          Date Issued:
                                              TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

CHAPTER I - THE ATLANTA PIC DID NOT
PROPERLY MANAGE CONTRACT PROCUREMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Poor Planning Contributed to Lack
          of Competitive Procurement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Contractors’ Capabilities Were Not Evaluated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          The Reasonableness of Contractors’ Costs
          and Pricing Data Were Not Adequately Determined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          Provisions of Fixed-Price Contracts Were Improper . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          The PIC Did Not Evaluate the
          Reasonableness of Prices Charged for Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

CHAPTER II - EFFECTIVE MONITORING COULD HAVE
IMPROVED SERVICE DELIVERY AND REDUCED PROGRAM ABUSES . . . . . . . . . . . . . . 19

          The PIC’s Monitoring Did Not Conform
          With Planned Efforts or Established Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19



Office of Inspector General                                                                                                              ii
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


       Contract Provisions Did Not Contain Sufficient
       Criteria to Evaluate Participants’ Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


                                   TABLE OF CONTENTS (Cont.)


       Often Contractors Did Not
       Apply Entrance/Exit Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

ATTACHMENTS:

       ATTACHMENT A SUMMARY OF CONTRACTS REVIEWED

       ATTACHMENT B                   QUESTIONED COST SUMMARY

       ATTACHMENT C                   CONTRACT SYNOPSES

                 C-1        BUTLER STREET YMCA
                 C-2        ATLANTA METROPOLITAN COLLEGE
                 C-3        CANDACE ENTERPRISES, INC.
                 C-4        CHINESE AMERICAN SERVICE AGENCY
                 C-5        ESQUIRE PROFESSIONAL MANAGEMENT SYSTEMS, INC.
                 C-6        GEORGIA MEDICAL INSTITUTE
                 C-7        STRATEGIC TRAINING INTERVENTIONS
                 C-8        ADVANCED MULTIMEDIA LEARNING SYSTEMS
                 C-9        AMERICA’S DRIVING FORCE
                 C-10       GEORGIA DRIVING ACADEMY
                 C-11       GOODWILL INDUSTRIES OF ATLANTA, INC.
                 C-12       INTERNATIONAL WAITERS ACADEMY
                 C-13       OFFICE AUTOMATION SERVICES, INC.
                 C-14       PARTEK SYSTEMS, INC.

EXHIBIT I - ATLANTA PIC’S COMPLETE RESPONSE TO THE DRAFT REPORT




Office of Inspector General                                                                                                        iii
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


                                         ACRONYMS


CASA          -       Chinese American Service Agency

CATP          -       Commercially Available Training Package

ETA           -       Employment and Training Administration

GDOL -        Georgia Department of Labor

GED           -       General Equivalency Diploma

OIG           -       Office of Inspector General

OJT           -       On-the-Job Training

JTPA          -       Job Training Partnership Act

OAS           -       Office Automation Services, Inc.

PIC           -       Private Industry Council

PY            -       Program Year

SDA           -       Service Delivery Area

SOF           -       Statement of Facts

STI           -       Strategic Training Interventions

RFP           -       Request for Proposal

UI            -       Unemployment Insurance




Office of Inspector General                                        iv
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts




                                  EXECUTIVE SUMMARY


The Office of Inspector General audited Job Training Partnership Act (JTPA) program expenditures of
the Atlanta Private Industry Council (PIC). Our examination focused on selected JTPA Title IIA
contracts awarded vendors to provide program participants training, placement and other services,
during Program Year (PY) 1996.



 Audit                 We found that better service could have been provided participants, at a lower
                       cost, had the PIC properly applied JTPA procurement requirements and
 Results               adequately monitored the activities of its contractors. We also questioned
$543,117 in grant expenditures that were not in compliance with JTPA requirements.



Procurement             Poor planning contributed to hasty selection of contractors, several of whom
                        were not competitively procured. Often, the PIC did not determine
Concerns                contractors’ capabilities to deliver services, complete adequate price or cost
                        analysis or consider contractors’ past records of success prior to awarding the
contracts. We also found fixed-unit-price contracts were improperly negotiated, as were some training
contracts that were improperly awarded as commercially available training packages.


                                        Although the PIC had established a monitoring plan and
Poor Monitoring
                                        developed adequate guidance for its staff, the plan was not
of Contractors’ Activities              completed and established procedures were not followed.

As a consequence, we identified a variety of problems with both the PIC’s and its contractors’
activities. Financial concerns included funds advanced to contractors that had not been recovered,
expenditures charged to the wrong JTPA grant and unsupported contractors’ costs were billed to the
JTPA program.

The PIC must better evaluate contractors’ effectiveness in serving participants. We found contracts
were poorly written and did not contain sufficient requirements that allowed the PIC to effectively
monitor contractors’ performance or ensure participants were well served. Contracts often failed to
describe contractors’ responsibilities and when present, contract requirements were not enforced. In


Office of Inspector General
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


several instances, records supporting the training participants had received and the knowledge they had
gained was partially or wholly missing. Finally, we identified several instances of abuse, such as
contractor’s claims they had placed participants in jobs that our contacts with employers indicated had
not occurred. We believe better monitoring by the PIC should have detected such situations.

Recommendations               The report discusses numerous recommendations for strengthening the
                              PIC’s management of its contract procurement and monitoring processes.
However, many of the weaknesses we discuss could be corrected if the PIC would follow existing
internal control and administrative procedures. We also recommend the Assistant Secretary for
Employment and Training recover $543,117 in misspent JTPA funds.



The PIC’s Response to  The PICs acknowledged weaknesses in its procurement and
                       monitoring systems, but does not believe its oversight of grant
Our Draft Audit Report activities was inadequate. The PIC also disagreed with many of
                                    our findings and questioned costs related to specific contracts,
indicated it had complied with program requirements, and indicated additional documentation was
available that was not considered. The complete text of the PIC’s response is included as Exhibit I of
the report.


                                 We remain convinced that poor stewardship of its contract procurement
Conclusions
                                 process and contractors’ activities were principal causes for many of the
                                 PIC’s problems discussed in this report. Although the PIC asserts that it
complied with all JTPA and GDOL requirements, we identified many violations of those requirements.
We reviewed all documentation available and found it did not provide us with information that caused
us to reduce the costs we have questioned. We recommend the Assistant Secretary for Employment
and Training recover $543,1171 in misspent JTPA funds from the Atlanta PIC and monitor the PIC’s
activities to ensure corrective action has been implemented.




        1
         Individual amounts we have questioned exceed the net amount of $543,117 because some costs were
questioned for more than one reason.

Office of Inspector General                                                                                2
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts



                                       INTRODUCTION


                                 In early 1998, the Georgia Department of Labor (GDOL) identified
 Concerns With the               program deficiencies during their monitoring of the PIC’s
 Atlanta PIC’s                   administrative systems. The GDOL completed a review of certain of
 JTPA Programs                   the PIC’s activities and reported serious problems with the PIC’s
                                 procurement and contracting systems and the PIC’s monitoring of the
                                 contractors’ activities.

Based on our analysis of the program deficiencies reported by GDOL and annual JTPA performance
data reported by the PIC and the State, we conducted a limited-scope program performance audit to
determine whether JTPA Title IIA funding allocated to the Atlanta PIC during PY 1996 were spent in
accordance with the JTPA and Federal regulations.


                           The JTPA amendments of 1992 (Public Law 102-367) authorized funds for
 Purpose of                programs intended to help youths and adults, who face serious barriers to
 the JTPA                  employment, participate in the labor force. JTPA program participants may
                           receive job training or other services that are expected to increase their
                           educational and occupational skills resulting in long-term employment and
reduced welfare dependency. Federal funds for JTPA programs are provided to states, in accordance
with an agreement between each governor and the Secretary of Labor. The agreements contain
assurances that the states will comply with the JTPA’s provisions and regulations.


In turn, a majority of the JTPA grant funds provided governors are distributed to local Private Industry
Councils (PICs). The PICs administer JTPA programs, in accordance with a service delivery plan
submitted to the governor, and oversee the activities of their respective service delivery areas (SDAs).
Each governor is responsible for the stewardship of all SDAs’ JTPA program activities in a state.




Office of Inspector General                                                                                3
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


                   OBJECTIVES, SCOPE AND METHODOLOGY

 Objectives         Our objectives were to determine if contract procurement requirements had been
                    satisfied and if the PIC had exercised sufficient oversight of contractors’ activities
to ensure JTPA participants were properly served.

                    Our audit focused on the Atlanta PIC’s contract procurement and monitoring
 Scope
                    activities that were funded with JTPA Title IIA monies, during PY 1996. The
                    Atlanta PIC was allocated $1,563,777 in Title IIA funds for PY 1996. We chose
a sample of 14 JTPA Title IIA contracts from among the PIC’s PY 1996 JTPA service providers’
contracts. (See Attachment A for details related to each contract reviewed.) Expenditures for the 14
contracts we audited totaled $704,669, or 45 percent of the JTPA Title IIA funds allocated to the
Atlanta PIC for PY 1996.

During the course of our review, we identified material weaknesses in the PIC contract procurement
and monitoring activities, which we discuss in the “Results of Audit” section of this report. Our audit
was conducted in accordance with Government Auditing Standards, published by the Comptroller
General of the United States, and included such tests as we considered necessary to satisfy our limited
scope review. We began our field work in June 1998 and it continued intermittently through June
1999.

                         We reviewed GDOL and Atlanta PIC policies and procedures related to
 Methodology
                         JTPA Title IIA activities. Using contract and participant files maintained by the
                         PIC, we reviewed each of the 14 contracts to evaluate adherence to JTPA
laws and regulations. When available, we reviewed related contractor records and attempted to
evaluate training received and outcome achieved by the participants.

For those participants terminated as placed in employment, we obtained State UI wage data to
determine if wages were reported by the placement employer, and attempted to contact and interview
the reported placement employer. We obtained and reviewed records from the JTPA 13th week
followup system. In addition, we obtained and analyzed State management information system (MIS)
data for each participant enrolled in the 14 training contracts. In order to determine total funds
expended on each contract, we obtained financial data related to each of the 14 service providers from
the City of Atlanta’s Finance Department.

The PIC was provided a “Statement of Facts” (SOF) that discussed issues identified for each of the 14
contracts we reviewed and given an opportunity to respond. In addition, comments were solicited from



Office of Inspector General                                                                                  4
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


the PIC to our draft audit report. We have considered the PIC’s response to our SOF and draft audit
report in preparing this document.




Office of Inspector General                                                                           5
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts



                                    RESULTS OF AUDIT


The objectives of the JTPA Title IIA programs are to help adults overcome barriers to employment,
improve their basic educational and occupational skills and increase their employment prospects and
earnings. The Atlanta PIC’s PY 1996 Title IIA program did not achieve these objectives.

Program data reported to the State show that only a small portion of the PIC’s PY 1996 program
participants received job placement assistance and the costs associated with those placed were high.
Some 511 participants were terminated from the Atlanta PIC’s JTPA Title IIA program in PY 1996.
Two-thirds of the participants (341) that terminated received only assessment services. Of the
remaining terminated participants, 93 (18 percent) were reported as placed in employment.

                                                                The PIC spent a total of $1,599,694
                                                                in JTPA Title IIA funds during PY
                                                                1996, or an average of $17,201 per
                                                                participant who was placed in
                                                                employment. As illustrated in the
                                                                chart, the Atlanta PIC’s average cost
                                                                per placement was over two and one-
                                                                half times the State’s average JTPA
                                                                Title IIA cost of $6,639.

                                                                Although high, the PIC’s average cost
                                                                per placement may be understated, as
                                                                we have concerns regarding the
                                                                validity of many placements reported
                                                                by the PIC in the contracts we
                                                                examined.

Of the 278 participants enrolled in the 14 JTPA contracts we reviewed, 141 participants were reported
as placed in employment. However, we had questions regarding 78 (55 percent) of




Office of Inspector General                                                                            6
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


the placements.2 For 20 of the participants reported as placed, we were unable to contact the
employer reported to have hired them or to verify their employment from alternate sources.3 For the
remaining 121 participants reported as placed, we identified a variety of questionable practices which
distorted program statistics. Our concerns include:

        •        employers who indicate they did not hire participants reported as working for them;

        •        participants who contractors reported were placed with employers they had worked
                 for before and during their JTPA training;

        •        contractors who received fees for placing participants with themselves;

        •        contractors who were paid for placing participants in JTPA-subsidized training
                 positions with other of the PIC’s contractors; and

        •        participants identified as placed in employment on whom little or no wages were
                 reported following their termination from the JTPA program.

We have questioned expenditures of $543,117 related to the 14 contracts we examined. Problems we
have identified are discussed in the following chapters of this report and costs we have questioned are
summarized in Attachment B. A synopsis of contracts we examined and our concerns with each are
contained in Attachments C-1 through C-14 of this report.

The PIC had sufficient controls and administrative procedures in place to have properly evaluated
proposals, ensured the contractors were competitively selected, adequately monitored their activities,
and complied with other of the JTPA’s requirements. However, the procedures were either carelessly
completed or were not followed.




        2
          The numbers of participants associated with the contracts we examined exceeded the number of
participants reported by the PIC in PY 1996. We reviewed the activities of selected contracts that were awarded in
PY 1996 throughout their periods of performance. The activities of the contracts we reviewed often extended into
PY 1997. As discussed later in this report, the PIC awarded many of its PY 1996 contracts very late in the program
year. Consequently, fewer participants are included in the PY 1996 program statistics.

        3
           Procedures we employed to confirm participants’ employment are discussed in the “Objectives, Scope
and Methodology” section of this report. We have not questioned costs solely because participants’ employment
could not be confirmed with the placement employers.

Office of Inspector General                                                                                      7
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


As discussed in the following chapters of the report, we attribute problems we identified to the PIC’s
disregard for JTPA procurement and other contracting requirements (Chapter I) and lack of effective
oversight of the contractors’ program and financial activities (Chapter II).

The PIC responded to both the draft report’s overall findings, conclusions and recommendations and to
specific problems reported in each of the contracts we examined. A summary of the PIC’s response
and our conclusions relating to procurement and monitoring concerns are presented at the end of
Chapters I and II, respectively. Summaries of the PIC’s comments regarding specific contracts we
examined have been incorporated into Attachments C-1 through C-14. Exhibit I of this report contains
the PIC’s entire response to the draft report. The PIC’s comments and our conclusions regarding the
JTPA programs’ overall effectiveness follow.


ATLANTA PIC’S RESPONSE TO DRAFT REPORT

The PIC argued that comparisons of the PIC’s average cost per placement to the statewide average,
“is misleading and serves no purpose.” The PIC commented it had, “met and exceeded” mandated
performance standards for PY 1996 and the high average cost of placing adults in employment was
due, “. . . mainly to a low enrollment rate . . . ” for which the State granted a performance waiver. The
PIC also believes the comparison is unfair because:

        Many of the selected contracts reviewed provided participant services after
        June 30, 1997 and therefore were not components of the Program Year (PY) 1996
        Performance.

The PIC also indicated the average cost per placement was not understated, contrary to OIG’s
concerns. Although the PIC agreed that its monitoring effort should have included random verification
of placements, the response indicates all placements were verified, “. . . in accordance with standard
and acceptable practices.” Regarding OIG’s concerns that some reported placement employers said
that they did not hire the participants, the PIC responded that employers attested to hiring the
participants.

The PIC believes it is acceptable that participants were placed with employers they had worked for
before and during their JTPA training. It is the PIC’s opinion that this is allowable. Further, the PIC
said it was also allowable for the contractors to have received fees for placing participants with
themselves.




Office of Inspector General                                                                                 8
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


The PIC disagreed with OIG’s contention that contractors were paid for placing participants in JTPA-
subsidized training positions with other of the PIC’s contractors. The PIC also disputed OIG’s
remarks concerning participants having little or no reported wages following termination from JTPA.


OIG’S CONCLUSION

Based on the many program weaknesses identified in this report, we believe the large variance between
the PIC’s and the State’s average participant placement costs are a cause for concern and signal the
need for improvements in the PIC’s programs. The PIC’s response that it “met and exceeded”
mandated performance standards for PY 1996 is incorrect. Due to interruption caused by the
Olympics, the PIC requested and the State granted adjustments to its PY 1996 standards. However,
the PIC did not meet the amended “adult entered employment” standard.

We also reviewed the PIC’s PY 1997 final performance standards and actual performance as reported
by GDOL, because many of the participants who entered programs during PY 1996 did not terminate
from the program until PY 1997. We found that in PY 1997, the PIC did not meet the “adult
employment rate at follow-up” or the “adult entered employment rate” performance standards.

Consequently, the interruption in services caused by the Olympics may have contributed to the PIC’s
low adult performance standards for PY 1996. However, evidence suggests it is an ongoing problem.
We continue to believe that, due to the weaknesses identified in this report, the PIC did not effectively
deliver assistance to JTPA participants.

Although the PIC asserts that its average cost per placement was not understated and that all
placements were verified in accordance with “. . . standard and acceptable practices,” we found
otherwise. In our contacts with employers, we identified several participants who were claimed as
placed, but had not been hired by the employer. Questionable placements have understated the PIC’s
average cost.

We continue to believe that in the instances we identified in this report, it was improper to use JTPA
funds to pay the contractors for placing participants with themselves or in JTPA-subsidized training
positions with other PIC contractors.




Office of Inspector General                                                                                 9
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


                                  CHAPTER I
                       THE ATLANTA PIC DID NOT PROPERLY
                       MANAGE CONTRACT PROCUREMENT


The Atlanta PIC exercised poor stewardship over its PY 1996 contract awards and often did not apply
JTPA procurement requirements. Poor planning resulted in acceptance of unsolicited proposals and
contributed to a lack of competitive procurement in selecting contractors. While the PIC had sufficient
procedures in place to review contract proposals, the contractors’ capabilities to deliver services were
not evaluated, adequate cost/price analyses were not performed before contracts were awarded,
provisions of fixed-unit-price contracts were improperly negotiated, and the reasonableness of prices
charged for training packages were not evaluated.

Poor Planning                             Nine of 14 contracts we examined (64 percent) were not
                                          competitively procured. Rather, they were the product of
Contributed to Lack of
                                          unsolicited proposals, many of which were hurriedly awarded
Competitive Procurement                   late in the program year.

As a condition for receiving appropriations, each SDA must submit an annual job training plan to the
Governor describing planned uses to be made of JTPA funds. On August 22, 1996, the PIC sent its
Title II, PY 1996 job training plan to GDOL. GDOL approved the plan on January 3, 1997. It
indicated that a total of $1,800,166 in Title IIA funds were available,4 of which the PIC committed
$1,175,830 to planned activities. However, the remaining balance of $624,336, or nearly 35 percent
of the total available, were identified by the PIC as funds whose use would “be determined.”

A March 10, 1997 memorandum in the PIC’s procurement files justified the acceptance of unsolicited
proposals not competitively procured. According to the memorandum, the PIC’s planning staff was
not aware a substantial portion of the PY 1996 JTPA funds were available:

        PIC Fiscal staff provided financial data to the PIC and PIC Operational
        Planning staff during the week of March 8, 1997. They have identified
        unexpended program funds for Titles IIA/C for Program Year 1996. Because PIC
        Fiscal did not make this information available before January and because three
        quarters of the Program Year have elapsed. PIC Administrative staff has
        determined that use of the Non-competitive procurement procedures is warranted

        4
          Funds identified as available for PY 1996 consisted of $236,389 in unspent prior years’ funds and an
additional $1,563,777 in funds allocated for PY 1996.

Office of Inspector General                                                                                      10
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


        to allow for maximum flexibility in program management and to serve the needs
        of individual participants. [sic]

        The PIC staff will use per the revised PMM and its internal procurement
        procedures, the non-competitive procurement alternative of Unsolicited
        Proposals. . . .[sic]

The PIC’s urgency to commit the funds was such that proposals submitted in response to earlier RFPs
that had been rejected as unresponsive were subsequently awarded as unsolicited proposals. For
example, a contractor had submitted a proposal to provide women with preapprenticeship training to
prepare them for entry into construction trades. The proposal was in response to an RFP issued by the
PIC and included proposed training costs of $1,600 per participant.

Correspondence dated September 9, 1996 from the PIC staff, recommended the contract not be
funded, because its costs were not considered reasonable when evaluated against other proposals. Yet
on March 31, 1997, following identification of uncommitted funds, a preagreement letter was signed
with the same contractor and committed the PIC to similar training, at a cost of $4,935 per participant.
(See Attachment C-11.)

JTPA program regulations at 20 CFR 627.420 (d )(iv)(B) caution against using sole-source
procurement, except in extraordinary circumstances, such as where:

        (ii) The public exigency or emergency need for the item or service does not permit
        a delay resulting from competitive solicitation.

Neither the circumstances nor rationale applied by the PIC is an acceptable reason for the use of sole-
source procurement. Rather, the use of sole-source procurement resulted from lack of adequate
planning.


 Contractors’ Capabilities             In some instances we did not find evidence that the PIC had
 Were Not Evaluated                    evaluated the contractors’ capabilities of satisfying program
                                       objectives or adequately serving participants for the 14
                                       contracts we examined. Rather, the PIC continued to contract
with some service providers that had poor records of success.

The JTPA regulations at 20 CFR 627.422 emphasize the importance of determining service providers’
capabilities when considering an award of funds:


Office of Inspector General                                                                           11
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


        Awards are to be made to organizations possessing the demonstrated ability to
        perform successfully under the terms and conditions of a proposed subgrant or
        contract. Such determinations shall be in writing. . . .

Critical indicators of suitability that are identified in JTPA regulations include the contractor’s financial
stability, ability to meet program design specifications and performance goals. Emphasis is placed on a
satisfactory record of past performance, as measured by reasonable participant dropout, employment
earnings and job retention rates.

In conflict with program requirements, the PIC continued to contract with some service providers who
were not successful in serving participants. For example, two of the contractors’ PY 1996
performance standards, identified in the contracts, indicated participants they served were to have
achieved a participant employment rate of 85 percent. Both contractors fell significantly below the
standard (36 and 46 percent), yet both were awarded PY 1997 contracts. (See Attachments C-1 and
C-4.)



 The Reasonableness of                    Often, contractors were not required to supply sufficient
                                          information for the PIC to determine the reasonableness of
 Contractors’ Costs and
                                          proposals. Some contracts that were approved lacked basic
 Pricing Data Were Not                    information common to any training agreement, such as the
 Adequately Determined                    period of performance, funds obligated or number of
                                          participants to be served. When the information was present,
the PIC did not complete sufficient cost or price analysis of the data to determine its validity or
accuracy.

JTPA regulations require each recipient establish standards and perform a cost or price analysis in
connection with every procurement action prior to the award of any contracts. Cost analysis is a
component-by-component evaluation of cost estimates in a respondent’s proposal.
JTPA regulations at 20 CFR 627.420(e)(2) also require that a cost analysis be completed for every
procurement:

        . . .when the offer is required to submit the elements of the estimated costs, when
        adequate price competition is lacking, and for sole source procurements,
        including modifications or change orders. . . .

Line item budgets were required for six of the contracts (three cost reimbursable and three fixed-unit-
price contracts) we examined. In some instances, data supplied by contractors in support of budgeted


Office of Inspector General                                                                                12
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


costs were inadequate to determine the reasonableness of proposed costs. In other instances, we
found no indication that information supplied by the contractors was evaluated by the PIC’s staff.
Instead, information included in the proposals was sometimes contradictory, yet the proposals were
accepted. For example, cost estimates offered as support for prices charged by the contractors in
three of the proposals or subsequent contract modifications included costs that applied to time frames
that exceeded the contracts’ periods of performance.

Large variations in prices for nearly identical services also indicate the lack of scrutiny proposals
received by the PIC’s staff. For example, one contractor was awarded fixed-price contracts, in two
consecutive years, to train participants. The PY 1996 and 1997 contracts were to serve 25 and 15
participants, respectively. The two contracts’ statement of work, objectives, scope and length of
participant training were identical, as were budgeted cost estimates for personnel, equipment and
supplies. However, the average cost per participant of the PY 1997 contract was 34 percent higher
than that of the PY 1996 contract.

We noted some cost estimates contained in PY 1997 contracts appear to have been copied from the
previous year’s contract, without consideration for changes in the scope of the activities. For example,
a PY 1997 contract’s training supplies budget included the cost of 30 texts/workbooks, as was
identified in the PY 1996 contract. However, only 15 participants were to be trained in PY 1997.
(See Attachment C-1.)

In addition, other proposals we examined contained mathematical inaccuracies, summary cost estimates
did not agree with the totals on supporting schedules, and other irregularities that should have been
identified through the PIC’s review.

                                        Provisions of some contracts awarded by the PIC limit the
Provisions of Fixed-Price
                                        contractors’ exposure to financial risks for poor performance
Contracts Were Improper                 and could have allowed the contractors to receive excessive
                                        profits.

JTPA regulations allow the use of performance-based, fixed-unit-price (fixed-price) contracts as a
means of encouraging better service to participants. Fixed-price training contracts typically contain
several payment points that are triggered by participants’ progress in reaching benchmarks. For
example, a $20,000 contract to train 20 participants at an anticipated cost of $1,000 per participant
might contain provisions that the contractor receives $100 when a participant was enrolled in the
program, $300 when the participant completed training, $400 when the participant was placed in a job,
and $200 if a participant remained in his or her job with the same employer for a certain length of time.



Office of Inspector General                                                                              13
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


It is intended that fixed-price contracts reward the contractors’ success in serving participants with
profits (program income if the contractor is a nonprofit entity) and discourage poor performance with
losses. However, improperly negotiated, fixed-price contracts can result in the contractors receiving
excessive profits, without providing good services to participants. Consequently, JTPA regulations at
20 CFR 627.420 contain provisions to help prevent abuses of fixed-price contracting. In addition to a
cost or price analysis, the regulations require that fixed-price contracts incorporate the contractors’ risk
as an element in determining contract price, profits may not be excessive, and when profit or program
income is included as an element of a contract’s price, it must be negotiated as a separate item.

However, provisions in all three of the PIC’s fixed-price contracts we examined reduced the
contractors’ exposure to risk for poor performance and provided opportunities for some of the
contractors to earn excessive profits. Calculations of benchmark payments were not based upon the
contractors’ success in serving the numbers of participants enrolled in the program. Rather, successive
benchmark payments were based upon declining numbers of participants reaching the next benchmark.
The diminishing expectations improperly reduced the contractor’s risks and inflated the contract price.

To illustrate, the Atlanta PIC awarded a nonprofit organization a fixed-price contract to serve 25
participants. The contractor provided a budget that contained a total cost estimate of $95,106 to serve
the participants and included a payment schedule that allowed the contractor to recover his estimated
costs.5 However, the payment schedule was not based upon the number of participants that entered
the program. Rather, the payment schedule was based upon calculations that:

        C        25 participants would be enrolled in the program;

        C        20 participants would remain in the program at the midterm;

        C        17 participants would complete training;

        C        15 students would be placed in employment; and

        C        12 participants would be retained, for specified lengths of time, by their         employers.


        5
            We noted costs included in the contractor’s estimates that could not appropriately be charged to
participant training. In addition, the contractor’s cost estimate and payment schedule contained computational
errors that were not detected by the PIC. Only five participants were placed. However, all were employed by the
contractor at a placement cost of $1,946 each. Three of the participants remained employed for less than one
quarter and earned substantially less in wages than the contractor’s placement fee. Although the contract’s
provisions eliminated much of the risk, poor performance resulted in the contractor not earning enough to recover
estimated costs. Also, the contractor was advanced funds of $8,118 that were not recovered by the PIC.

Office of Inspector General                                                                                    14
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts



The contract schedule allowed payments of $138,600, which could have resulted in the contractor
receiving profits of $43,494, or 46 percent of the contract total. The JTPA regulations allow
reasonable profits or program income (revenues in excess of costs) for a private or nonprofit
contractor, if profit is properly negotiated as a separate element of the price. However, we found no
evidence that profit or program income had been negotiated.

Further, the contractor was a nonprofit organization. We question why a public service nonprofit
organization would require a profit incentive to assist the public and believe a cost-reimbursable
contract would be more appropriate. Nonetheless, had the contract resulted in program income, the
contractor should not have kept the income. Rather, program income must be used to provide
additional JTPA services, in accordance with requirements at 20 CFR 627.450(c). These restrictions
are not identified in the PIC’s contracts. (See Attachment C-1 for a further discussion of this contract.)




                                                   Proposals for 8 of the 14 contracts we examined
  The PIC Did Not Evaluate
                                                   were submitted as CATPs. Four of the eight
  The Reasonableness of Prices                     contracts were not competitively procured.
  Charged for Training                             Respondents either did not provide information
                                                   required by the RFPs or the PIC’s staff did not
                                                   follow established procedures and evaluate the
information respondents had provided to ensure the proposals were legitimate CATPs.

The JTPA allows the cost of training packages, widely offered to the public, to be procured without a
cost analysis, if adequate competition is present. Section 141 (d)(3)(A) provides:

        Commercially available training packages [CATPs], including advanced
        technology, may be purchased for off-the-shelf-prices and without requiring a
        breakdown of the cost components of the package if such packages are
        purchased competitively and include performance criteria.

Program regulations at 20 CFR 627.420(e)(2) provide further guidance. The regulations indicate
CATPs may be procured through price analysis, if ample competition is available and the
reasonableness of prices can be established:




Office of Inspector General                                                                             15
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


        . . . on the basis of a catalog or market price of a commercial product sold in
        substantial quantities to the general public or based on prices set by law or
        regulation.

The PIC’s PY 1996 RFP solicitation defined requirements for proposals that could be considered as
CATPs. Respondents were required to provide an attachment that contained information to establish
that the proposals were valid CATPs and for the PIC to complete a price analysis.

The RFP required that to be considered as CATPs, the training must have been available to the general
public for at least 6 months before the RFP was issued. The RFP also required that at least 20
packages must have been sold and that non-JTPA users had to account for at least 30 percent of the
respondent’s sales. Other information that was required included the date services were first offered
for sale, the price, sales for the previous 6-month period, and the percentage of a respondent’s revenue
generated from sales to non-JTPA users.

To evaluate the effectiveness of the training, respondents were also directed to provide performance
criteria, participant placement rates, and wages. In addition, responses were to include a copy of the
most current catalog describing the training and courses currently available, rules governing the training,
the duration and cost of training. Finally, respondents were required to list 15 non-JTPA purchasers of
the services being offered.

Although information required by the RFP and the PIC’s procedures for reviewing the data were
appropriate for determining whether the proposals were bona fide CATPs, it was not evaluated. We
found:

        C       two respondents did not provide information required by the RFP to determine if the
                training offered was a CATP; and

        C       six respondents submitted information required by the RFP, however, there was no
                evidence the information was verified by the PIC.

Further, four of eight proposals accepted as CATPs were not competitively procured and did not
satisfy JTPA criteria that ample competition be present to establish the reasonableness of the
respondent’s price.

There were wide variations in the prices charged by the PIC’s contractors for like participant services.
For example, two of the contracts we examined provided training to assist participants in obtaining
commercial driver licenses and finding jobs as tractor/trailer operators. While the objectives and length


Office of Inspector General                                                                              16
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


of training were the same, there was a 78 percent difference in the price ($3,550 compared to $1,989)
for training a participant between the two packages. Although the higher-priced training did provide for
participant lodging, the contractor indicated the cost of the lodging averaged only $220 per participant.
The PIC did not determine if the remaining $1,341 difference was reasonable. (Refer to attachments
C-9 and C-10.)


RECOMMENDATIONS

To help strengthen the PIC’s management of its contract procurement process, we recommend the PIC
develop and implement procedures which ensure:

        •       JTPA service providers are identified early in the planning process and competitively
                procured.

        •       Cost and price analysis, which include budgeted cost negotiations, are completed in
                accordance with JTPA regulations, prior to the award of all contracts. Profits or
                program income, if included, should be negotiated as a separate element of the price in
                accordance with JTPA regulations.

        •       Contract proposals should be accepted as CATPs and treated as such for purposes of
                procurement, only if they are properly evaluated and satisfy all JTPA requirements.

We question $388,299 in expenditures related to CATP contracts which did not meet JTPA
requirements. Unless the PIC can provide additional documentation establishing that the costs are
allowable, they should be recovered. Details of questioned costs related to specific CATP contracts
we reviewed are provided in Attachment B of the report.


ATLANTA PIC’S RESPONSE TO THE DRAFT REPORT

The Atlanta PIC believes its stewardship over the contract procurement process was adequate. The
PIC responded that it followed all JTPA and GDOL requirements. The PIC stated that its use of
noncompetitive procurement process was in accordance with GDOL procedures and Federal
guidelines, and was necessitated because of the limited number of proposals received in response to the
PY 1996 RFP.




Office of Inspector General                                                                             17
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


According to the PIC, documentation of CATPs met Federal and GDOL guidelines. The PIC also
commented that it required prospective contractors to provide, “an attestation of cost and price” which
was accepted by GDOL as adequate.

The PIC stated that OIG did not review contract “working file” documents or files of staff individuals
responsible for contract development. Also the PIC indicated that individual staff members no longer
maintain individual files and all files related to a specific contract have been centralized.


OIG’S CONCLUSION

We continue to believe that the Atlanta PIC’s stewardship over its contract procurement process was
inadequate. Our major concerns, as discussed in this report, were the PIC’s failure to (1) evaluate the
contractors’ capabilities of satisfying program objectives; (2) identify unsupported cost in contractor
budgets; (3) resolve large variations in prices for nearly identical services; (4) properly negotiate
provisions of fixed-unit-price contracts; and (5) discontinue awarding contracts to those providers who
were not successful in serving participants.

We disagree with comments that competitive price analysis was impossible because of the limited
number of contractor proposals it received. On April 9, 1996, the agency reviewed a total of 14 PY
1996 proposals. The PIC’s log indicates it received a total of 35 unsolicited proposals during the
period February 14, 1996 through June 13, 1997. While additional proposals may have resulted in
better cost comparisons, we do not agree that competitive price analysis was impossible. We continue
to believe lack of competitive procurement resulted from the PIC’s urgency to commit PY 1996 JTPA
funds that were not identified as available until late in the year.

The Atlanta PIC responded that all GDOL procurement requirements were followed. However, the
GDOL’s program review of the Atlanta PIC’s PY 1996 activities indicates otherwise. GDOL
reported that significant problems in the PIC procurement practices were a long-standing concern.
GDOL stated that while adequate procedures had evolved in response to previous reviews, they were
not being used, or were not used effectively to analyze proposals and negotiate program costs to ensure
quality services were purchased. Many of the deficiencies reported by GDOL mirror our findings.
Specifically, GDOL found:

        •       Offeror’s past performance was not considered in the evaluation of seven unsolicited
                proposals accepted late in PY 1996.




Office of Inspector General                                                                              18
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


        •       Cost analysis worksheets were filled out but raise few questions regarding costs, and
                do not indicate any follow-up on the unanswered questions.

        •       In some cases, costs were indicated to be reasonable but the documentation revealed
                the costs were not reasonable.

        •       Atlanta PIC’s procedures require that 25 percent of the sales of a CATP must be to
                the general public. Yet, PIC staff consistently failed to document that commercial
                vendors met this requirement during this and past reviews.

        •       Some contract budgets were overstated or calculated inaccurately.

        •       Late execution of contracts by the PIC continued to cause problems.

We disagree with the PIC’s assertion that its documentation of CATPs met Federal guidelines. The
JTPA and Federal regulations require the evaluation of data included in proposals submitted as CATPs.
Federal criteria (20 CFR 626) state that it will not be sufficient for a training provider merely to claim its
services are available to the public and that the services are utilized by them. The SDA must be able to
show that the services actually are available and utilized by the public.

Regarding the PIC’s assertion that the OIG did not review contract “working file” documents and staff
files, during our review of the 14 service provider contracts, we requested for review any and all
contract, participant, and monitoring files maintained by the PIC or its contractors. The Atlanta PIC
was also provided the opportunity to provide additional data in their response to our SOFs on
individual contracts and the draft report. All data provided to us were considered in preparing this
report.

Our findings and recommendations remain unchanged.




Office of Inspector General                                                                                19
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


                          CHAPTER II
         EFFECTIVE MONITORING COULD HAVE IMPROVED
        SERVICE DELIVERY AND REDUCED PROGRAM ABUSES


The Atlanta PIC’s monitoring of the contractors’ activities was insufficient to ensure service providers
fulfilled their obligations or to evaluate whether participants benefited from the training. While a poorly
executed monitoring plan deserves blame, contracting problems also reduced the effectiveness of the
PIC’s monitoring. We identified a variety of program and financial concerns effective monitoring should
have identified and helped eliminate.



The PIC’s Monitoring Did                         The PIC developed a plan for monitoring its PY
Not Conform With Planned                         1996 contractors and a monitoring procedures
                                                 manual, which provided sufficient guidance to staff
Efforts or Established Procedures                on how to conduct monitoring. However, the plan
                                                 was not fully implemented and the scope of the
monitoring that was completed was not adequate to properly evaluate the contractors’ performance or
prevent abuses.

Section 165(c) of the JTPA requires that recipients monitor the performance of service providers in
complying with terms of grants and contracts. In addition, JTPA regulations at 20 CFR 627.475(e)(1)
require that the PIC, pursuant to standards established by the Governor, implement specific policies for
monitoring performance which must be described in an annual job training plan. GDOL’s policies and
procedures (PMM86) require that the scope of the monitoring system and procedures must include
compliance, financial, programmatic and performance monitoring.

Monitoring of Contractors’ Performance Was Incomplete. The contractors received some
attention from the PIC’s staff, including limited monitoring of their performance, through the use of
procedures that sometimes included participant interviews and reviews of attendance records. Most
often, monitoring was limited to a review of information available prior to the award or documentation
of activities that had occurred after the training had concluded.

However, none of the files we reviewed contained evidence the monitoring was of sufficient scope to
comply with the PIC’s established procedures. There was little evidence that effective procedures
identified in the PIC’s monitoring manual for assessing ongoing activities were applied. For example,
unannounced class room visits, proctoring of participant examinations and evaluating the knowledge or


Office of Inspector General                                                                             20
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


skills participants had gained from the training would have been effective in assessing the contractors’
performance.

Fiscal Monitoring of Contractors’ Activities Was Also Weak. Improvements are also needed in
the PIC’s oversight of the contractors’ financial activities. Costs charged to the JTPA program from
five of the PIC’s contractors were not supported. Specifically:

        •       Two contractors were advanced funds totaling $10,428 that were not recovered.

        •       One contractor did not provide adequate documentation for $24,261 related to staff
                salaries and fringe benefits and the cost of training materials charged to the program. In
                addition, the PIC charged expenditures of $14,473 associated with the contract to the
                wrong grant.

        •       One contractor received $6,968 in fixed-fee payments for enrolling participants in
                training. However, participants’ attendance was not supported by signed class rosters,
                as required by provisions of the contract. Also, $1,048 paid to the contractor for
                placing a participant was subsequently found improper, but the funds were not
                recovered from the contractor.

        •       One contractor’s charge of $5,570 that available documentation indicated was related
                to a PY 1992 contract was used to offset funds advanced to the contractor in PY
                1996.

JTPA regulation at 20 CFR 627.425(a)(1) require grantees’ financial management and participant data
systems to adequately document and report upon financial and participant activities. In addition,
Section 164 of the JTPA and Federal regulations at 20 CFR 627.435 require that allowable costs must
be necessary and reasonable for proper and efficient administration of the program and be allocable
charges.

The items discussed do not conform with the requirements. Consequently, we have questioned a total
of $62,748 charged to the PY 1996 JTPA Title IIA grant. (See Attachment B, “Other” column for a
reference to detailed discussions of problems identified with each of the
contracts.)

Had the PIC’s monitoring plan been fully implemented and existing procedures followed, many of the
problems we discuss could have been identified and corrected. However, improvements in monitoring



Office of Inspector General                                                                                21
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


efforts must be coupled with better contract provisions that clearly establish the contractors’
responsibilities, to be effective.


                                                 We found that the contractors’ effectiveness in serving
 Contract Provisions Did Not
                                                 participants often could not be adequately monitored
 Contain Sufficient Criteria to                  because the contracts did not clearly identify the
 Evaluate Participants’ Training                 contractors’ obligations or the PIC’s expectations of
                                                 what was to be accomplished. Of the 14 contracts
                                                 and related files we examined, 6 contracts (43
percent) did not contain adequate criteria to monitor the contractors’ performance. Specifically:

        •       two contracts did not identify the training curricula that participants were to receive;

        •       two contracts did not establish prerequisite knowledge students needed to enroll in the
                program (entrance criteria), or criteria to measure knowledge or skills of those who
                completed training were expected to have gained (exit criteria); and

        •       two contracts contained neither training curricula nor entrance/exit criteria.

The PIC did not require these elements to be included in the contracts and contractors were not
obligated to provide them. As a result, objective criteria necessary to monitor the contractors’
performance and measure the impact of training on participants was not available.


                                                           Even when entrance/exit criteria were included
 Often Contractors Did Not
                                                           in the contracts, monitoring was insufficient to
 Apply Entrance/Exit Criteria                              ensure the contractors applied them.

Ten contracts we reviewed contained program entrance criteria, exit criteria or both. The criteria are
important because they establish basic levels of knowledge and other requirements participants need to
benefit from training and provide minimum standards to gauge what a participant has gained from the
program. However, in one-half of the contracts we examined that had such provisions (5 of 10),
program participants failed to meet either entrance or exit criteria.

The enrollment requirements varied among contracts, although many of the contracts we examined
required participants to have high school or equivalent educations. However, often the requirements
were not applied. For example, one contract had the stated purpose of providing applicants with


Office of Inspector General                                                                                22
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


English language instruction, computer skills and employment placement assistance. The contract’s
provisions indicated that participants should be high school graduates or have obtained general
equivalency diplomas (GEDs) and have, at a minimum, ninth grade mathematical skills. However, 27
percent of the participants (7 of 26) enrolled in the program had educational levels below this
requirement. While the contract required ninth grade mathematical skills, one-half (13 of 26
participants) scored below this level. Also, we did not find evidence that the contractor had attempted
to determine if any of the 26 participants met enrollment requirements that they be drug-free and not
have felony convictions.6

Participants With Poor Entry-Level Skills Would Have Benefited From Remedial Training.
Of particular concern are the participants associated with the contracts we reviewed that did not meet
basic skills requirements and did not receive remedial training.

“Basic skills deficient” is defined in Section 4 (31) of the JTPA as:

         . . . English reading or computing skills at or below the 8th grade level, on a
         generally accepted standardized test or a comparable score on a criterion-
         referenced test.

The JTPA’s provisions and program regulations also require that participants be provided with basic
skills training when assessment indicates it is needed. During assessment, the PIC identified many
participants who were deficient in mathematics and reading. In the contracts we examined that had
entrance requirements, 55 percent of the participants enrolled (68 of 123) did not meet the
requirements. According to memoranda issued by the PIC, remedial training was to be provided by
the contractors, as necessary. Yet, we did not find evidence that participants received remedial-skills
training.

We believe that remedial training would have benefited many of the participants by increasing the
knowledge they gained from training and would have improved their chances of obtaining long-term
employment. As with other concerns we have discussed, these deficiencies should have been identified
and corrected through routine contract monitoring.

Often Documentation Necessary to Determine if Exit Criteria Had Been Met Was Not
Available. Adequate documentation necessary to determine whether participants received the training


         6
          Requirements that participants be drug and conviction-free are important criteria for participation in a
program because many employers will not hire participants with criminal records or those who test positive for
drug use.

Office of Inspector General                                                                                          23
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts


the contractors had agreed to provide was not available in either the PIC’s or the contractors’ records
for 10 of the 14 contracts we reviewed.

JTPA regulation at 20 CFR 627.425(a)(1) require that financial management and participant data
systems document activities in a manner that are, “. . . verifiable for monitoring, reporting, audit,
program management and evaluation purposes.”

Further, JTPA regulations at 20 CFR 628.520(d) require that an individual service strategy be
developed for each participant and that each participant’s progress be monitored:

        . . . to evaluate the progress of each participant in meeting the objectives of the
        service strategy, including an evaluation of the participant’s progress in acquiring
        basic skills, and occupational skills, as appropriate, and the adequacy of the
        supportive services provided.

However, participant training records were not available from two contractors7 and the information
maintained by eight other contractors was not sufficient to determine the training participants received.
As we were unable to evaluate the training provided participants, we question the PIC’s ability to
monitor participants’ achievement of their educational and occupational objectives.

For example, the provisions of one contract called for participants to receive a minimum of 300 hours
of classroom training and attain a minimum score of 70 percent on a final examination, or maintain an
average overall score of 70 percent. Participants’ attendance records kept by the contractor were
incomplete. Consequently, we were unable to determine the number of classroom hours of instruction
students were provided. Regarding academic requirements, the contractor indicated that students
received points for skills they mastered. While the contractor assigned a final grade to each student,
they were not supported by graded examinations. (See Attachment C-14.)

In another instance, the contractor administered midterm and final examination to participants.
However, both examinations contained the same questions. Consequently, participants’ knowledge of
subject areas taught during the second half of the training course were not tested. (See Attachment C-
1.)




        7
        One of the two contractors was out of business and the records could not be located. (See Attachment
C-8.) Concerns involving the other contractor that did not maintain participant training records are discussed in
Attachment C-5.

Office of Inspector General                                                                                     24
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts

We have questioned $215,126 related to 3 contracts in which adequate participant training records
were not available. (See Attachment B, heading “Training Records Unavailable” for a discussion of the
affected contracts.)

Participants Did Not Meet Exit Criteria in Several Contracts. In two of the contracts where
documentation was sufficient to evaluate the activities that had occurred, we found that participants
reported as having completed training had not met the contracts’ exit criteria.

For example, one contract called for participants to receive a minimum of 800 hours of instruction and
following completion of the program, at a minimum, be capable of typing 45 words per minute. None
of the 23 participants reported as having completed training received 800 hours of instruction and
participants’ test scores indicate none satisfied contract provisions of typing 45 words per minute.
(See Attachment C-4.)

We have questioned $105,656 involving two contracts in which provisions of the contracts were not
satisfied. (See Attachment B, heading “Exit Criteria Not Met” for a discussion of the problems
identified in the contracts.)

In addition, we have questioned $3,600 paid to a contractor who placed participants in JTPA-
subsidized on-the-job training (OJT) positions through another of the PIC’s contractors. The
contract’s provisions allowed the contractor to receive placement fees only if participants were placed
in full-time, training related, unsubsidized jobs. (See Attachment B heading “Questionable
Placements.”)


RECOMMENDATIONS

To help strengthen the PIC’s program monitoring and fiscal oversight, we recommend that the PIC
ensure that:

        •       Service providers are monitored in accordance with JTPA requirements and the PIC’s
                monitoring procedures. A monitoring plan should be implemented that anticipates
                completing reviews of all service providers and the scope of the monitoring should
                conform with established procedures.

        •       Contracts contain clear training curricula and criteria with which to evaluate
                participants’ gains and the contractors’ effectiveness. The contractors should also be
                monitored to ensure they provide the training or other services specified in the
                contracts.

Office of Inspector General                                                                              25
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts



       •       Participants assessed as deficient in basic skills receive remedial training, either apart
               from or in conjunction with occupational training. The training should be documented.
               Participants found in need of training to meet more stringent program entrance
               requirements should also be provided training.

       •       Records sufficient to evaluate training received by the participants are maintained, in
               accordance with JTPA regulations.

       •       Contractors’ invoices are supported with adequate documentation before they are paid.


       •       Expenditures are charged to the proper program and funds advanced to the contractors
               are recovered.

We recommend recovery of the following costs, unless the PIC can provide additional documentation
that establishes the costs are allowable:

       •       $105,656 related with contracts in which program participants did not satisfy exit
               criteria;

       •       $215,126 of unsupported expenditures involving participant training;

       •       $3,600 in fees paid to a contractor for placing participants, through another of the
               PIC’s contractors, in JTPA-subsidized jobs; and

       •       $62,748 in expenditures for contract payments which were not supported.

Details of questioned costs related to specific contracts we examined are provided in Attachment B of
the report.


ATLANTA PIC’S RESPONSE TO THE DRAFT REPORT

The PIC acknowledged that weaknesses existed in its monitoring system during PY 1996. However,
the PIC disagreed with OIG’s statement that six contracts did not contain adequate entrance or exit
criteria to monitor the contractors’ performance. According to the PIC, these were legitimate CATP
contracts, and the contractors’ catalogs established the prerequisite knowledge participants needed.


Office of Inspector General                                                                              26
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts

The PIC agreed that the contractors failed to adequately document participant progress and
completion. However, the PIC stated that participants met entrance and exit criteria. The PIC said
that exit criteria in most cases is a “target.” The PIC cited one contractor’s 90 percent placement rate
as evidence that participants were being effectively trained.


The PIC acknowledged that remedial training was not documented on a consistent basis, but stated that
it was integrated with vocational skills competencies.

The PIC indicated it is acceptable for the same questions to be on midterm and final examinations.
According to the PIC, this is a teaching technique of “repetition and reinforcement,” that is especially
useful for participants with basic skill deficiencies.

The PIC disagreed with our questioning $3,600 paid to a contractor for placing participants into JTPA-
subsidized jobs. Finally, the PIC stated it had incorporated all OIG recommendations prior to the OIG
report.

The Atlanta PIC made additional specific responses relating to our individual findings on the 14 service
provider contracts we audited. We have summarized the PIC’s response and our conclusions on the
responses are in Attachments C-1 through C-14. Exhibit I contains the PIC’s complete response.

OIG’S CONCLUSION

While we were able to locate criteria (course curricula, training hours, entrance/exit standards,
completion measurements) in some of the files reviewed, the files did not include sufficient criteria to
allow monitoring of the contractors’ effectiveness in serving individual participants. In some instances,
while the criteria were available in the contracting files (i.e., contract negotiation checklist or contractor
proposals), it was not incorporated into the contract or contained in the contractor’s course catalog.
Documentation was not present to determine what the contractors were required to provide the
participants. Of further concern is the contractors’ failure to document participant progress and
completion. Without such information, the PIC cannot adequately evaluate participants’ progress or
the contractors’ success in meeting the objectives of the training.

The PIC’s response that participants with basic-skills deficiencies received help from the contractors as
part of their skills-specific training program does not agree with information provided to us during our
fieldwork. As discussed, we identified memoranda issued by the PIC requiring remedial training be




Office of Inspector General                                                                                 27
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts

provided by the contractors. However, during our contract reviews, we did not find evidence that
participants identified as skills deficient received the required remedial-skills training. We continue to
believe that the lack of remedial skills training contributed to the PIC’s low adult “entered employment
rate.”

Although the PIC believes it is acceptable for midterm and final examinations to consist of the same
questions, it did not offer an explanation as to how knowledge of subject areas taught participants
during the second half of training was evaluated.

The PIC commented that a contractor’s 90 percent placement rate indicates the transference of skills
competencies. Regulations require that participants’ knowledge gains acquired through basic and
occupational skills training be assessed. Further, our review indicates questionable placements were
claimed by this contractor on its PYs 1996 and 1997 contracts.

Regarding the PIC’s contention that we should not have questioned $3,600 paid to a contractor for
placing participants in JTPA-subsidized jobs, we questioned the costs because no documentation was
provided us that supported the benchmark placements. Contract requirements provided that placement
benchmark payments would be made when participants had worked a minimum of 5 days in training-
related, verified, unsubsidized, full-time employment of at least 35 hours per week. The PIC’s
response did not provide documentation which supports the payments.

The Atlanta PIC provided us with documentation to support costs of $1,048 questioned in the draft
report. (See Attachment C-6.) However our questioned costs remain the same, as the costs were
questioned for more than one reason. Our findings and recommendations remain unchanged.




Office of Inspector General                                                                              28
Atlanta PIC - Audit of Selected Program Year 1996 JTPA Contracts

                                                                   EXHIBIT I




                              CLICK HERE FOR ATTACHMENTS




Office of Inspector General
